                                                EMPLOYMENT AND TRAINING
                                                ADMINISTRATION AND
                                                WAGE AND HOUR DIVISION
Office of Inspector General—Office of Audit 





                                                DEBARMENT AUTHORITY SHOULD BE
                                                USED MORE EXTENSIVELY IN
                                                FOREIGN LABOR CERTIFICATION PROGRAMS




                                                                          Date Issued: September 30, 2010
                                                                     Report Number:      05-10-002-03-321
U.S. Department of Labor                                 September 2010
Office of Inspector General
Office of Audit                                          DEBARMENT AUTHORITY SHOULD BE USED
                                                         MORE EXTENSIVELY IN FOREIGN LABOR
                                                         CERTIFICATION PROGRAMS
BRIEFLY…
Highlights of Report Number 05-10-002-03-321, to         WHAT OIG FOUND
the Assistant Secretary for Employment and               OFLC and WHD narrowly defined their suspension
Training Administration (ETA) and the Deputy             and debarment authority based only on INA
Administrator for Wage and Hour Division (WHD).          provisions, rather than the broader government-
                                                         wide authority (29 CFR Part 98). As a result, they
WHY READ THE REPORT                                      did not consider debarring individuals or entities
This report discusses the U.S. Department of             convicted of program violations resulting from OIG
Labor’s (DOL) use of suspension and debarment            investigations.
authority within the foreign labor certification (FLC)
programs. Suspension and debarment are used to           When OFLC and WHD did debar individuals or
assure that the government does business with            entities, they did not provide that information for
only responsible parties. Suspension prohibits           inclusion in the government’s Excluded Parties List
persons or entities from participating in                System. As a result, there was an increased risk
government business pending the results of an            that parties who had previously violated FLC laws
agency investigation. Debarment excludes                 or regulations could continue to participate in FLC
persons or entities from government business for         programs, or receive business or benefits from
up to 3 years for prescribed violations. The Federal     other federal agencies.
government established the government-wide
Excluded Parties List System as a comprehensive          Although not related to the use of suspension and
list of individuals and firms suspended,                 debarment authority, the audit also identified
disqualified, or otherwise excluded from receiving       several FLC applications that contained potentially
business or benefits from federal agencies.              invalid Employer Identification Numbers (EIN).
                                                         While the number of potentially invalid EINs was
In concert with the Departments of Homeland              small, the review of applications for valid EINs is
Security and State, DOL’s Office of Foreign Labor        within OFLC’s authority to “review applications for
Certification (OFLC) and WHD oversee and                 obvious errors.” An invalid EIN may indicate that
enforce provisions of the Immigration and                the applicant is not a legitimate organization.
Nationality Act (INA) related to several visa
programs that permit foreign residents to work in        WHAT OIG RECOMMENDED
the United States. Violations of program                 We recommended that ETA and WHD take steps
requirements subject persons and entities to             to assure that (a) debarments are considered, and
potential debarment from future program                  decisions documented, for anyone convicted of
participation and other government business.             FLC violations, and (b) FLC debarments are
                                                         reported to appropriate DOL personnel for
WHY OIG CONDUCTED THE AUDIT                              inclusion in the government-wide exclusion
The OIG conducted a performance audit to                 system. We also recommended that ETA
determine whether OFLC and WHD properly used             strengthen FLC application processing controls to
suspension and debarment in administering the            ensure the detection and resolution of applications
foreign labor certification programs.                    with potentially invalid EINs.

READ THE FULL REPORT                                     The Assistant Secretary for ETA cited the need to
To view the report, including the scope,                 resolve differing legal opinions concerning the use
methodology, and full agency response, go to:            of the exclusion system and stated they had
                                                         implemented additional EIN controls. WHD cited a
http://www.oig.dol.gov/public/reports/oa/2010/05-        need for further legal research over both
10-002-03-321.pdf                                        debarment authority and use of the exclusion
                                                         system.
PAGE INTENTIONALLY LEFT BLANK

                                                            U. S. Department of Labor – Office of Inspector General




Table of Contents 

                                                                                                                       PAGE



Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 3




Objective — Was the Department properly using suspension and debarment 

           in administering the foreign labor certification programs? ................. 4 


         The Department did not consider debarment actions against convicted FLC 

         violators, and did not report debarred or disqualified parties to the 

         government’s exclusion system............................................................................ 4 


         Finding 1— The Department was not considering debarment actions 

                    against all FLC applicants convicted of violations ............................. 4 


         Finding 2 — The Department did not submit information on debarred or 

                    otherwise disqualified FLC applicants to designated Department 

                    personnel for inclusion on the governmentwide exclusion system..... 6


Other Issue

         Applications with Invalid Employee Identification Numbers .................................. 8 



Recommendations ......................................................................................................... 8 


Exhibit

                   Exhibit: Expanded Criteria for Finding 1................................................... 13 


Appendices

Appendix A         Background .............................................................................................. 17

Appendix B         Objectives, Scope, Methodology, and Criteria ......................................... 19

Appendix C         Acronyms and Abbreviations ................................................................... 23 

Appendix D         OFLC Response to Draft Report.............................................................. 25 

Appendix E         Acknowledgements .................................................................................. 29





                                                          Suspension and Debarment in Foreign Labor Certification
                                                                                  Report No. 05-10-002-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





           Suspension and Debarment in Foreign Labor Certification
                                   Report No. 05-10-002-03-321
                                           U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 30, 2010

                        Assistant Inspector General’s Report


Jane Oates
Assistant Secretary,
 Employment and Training Administration
U.S. Department of Labor
200 Constitution Ave, NW
Washington, D.C. 20210

Nancy Leppink
Deputy Administrator,
 Wage and Hour Division
U.S. Department of Labor
200 Constitution Ave, NW
Washington, D.C. 20210


The Office of Inspector General (OIG), Office of Audit conducted a performance audit of
the Employment and Training Administration’s (ETA) and the Wage and Hour Division’s
(Wage and Hour) use of suspension and debarment authority within the Foreign Labor
Certification (FLC) programs during fiscal year (FY) 2009.

The Immigration and Nationality Act (INA) established several visa types that permit
foreign residents to work in the United States. These include (a) Permanent (PERM),
which allows an employer to hire a foreign worker to work permanently in the United
States; (b) H1B, which allows an employer to temporarily employ a foreign worker in a
specialty occupation requiring a bachelor’s degree or its equivalent, or as a fashion
model of distinguished merit and ability; (c) H2A, which allows agricultural employers,
who anticipate a shortage of domestic workers, to employ foreign workers to perform
agricultural labor or services of a temporary or seasonal nature; and (d) H2B, which
allows employers to hire foreign workers to perform temporary nonagricultural services
or labor on a one-time, seasonal, peak load or intermittent basis. During FY 2009, Office
of Foreign Labor Certification, or OFLC (Program Office), processed 321,730 labor
certification applications for these visa types. It certified 309,268 (96 percent) of those
applications.

The Departments of Labor (Department), Homeland Security (Homeland Security), and
State (State) all have oversight and approval responsibilities in these programs.
Employers must first seek a “labor certification” from the Department. If approved, the
certification acknowledges that (a) a need for workers exists, (b) the need cannot be
                                         Suspension and Debarment in Foreign Labor Certification
                                          1                      Report No. 05-10-002-03-321
                                                   U. S. Department of Labor – Office of Inspector General


satisfied by available U.S. workers, and (c) foreign workers will receive the prevailing
wage for the defined work. The Department performs its labor certification duties
through the Program Office. While the Program Office processes applications for foreign
labor certification, both it and Wage and Hour exercise enforcement action against
applicants who violate program rules.

The federal governmentwide suspension and debarment process is used to promote
economy and efficiency in federal procurement and nonprocurement activities by
ensuring the government conducts business only with responsible parties. Suspension
temporarily prohibits a person or entity from participating in government contracting and
other specified transactions, pending completion of an agency investigation and any
ensuing judicial or administrative proceedings. Debarment excludes a person or entity
from government contracting and other defined transactions for a designated period of
time (up to 3 years) for prescribed violations. Neither the Program Office nor Wage and
Hour suspend applications or debar FLC applicants using the governmentwide
suspension and debarment process.

The Program Office debars H2B, H2A, and PERM applicants under INA regulations by
notifying the applicant of the reason for the debarment, providing the applicant an
opportunity to appeal the debarment decision, and finalizing the debarment 1 . Wage and
Hour follows the same basic process for the H1B program except it notifies Homeland
Security, who in turn, actually finalizes the debarment. The Program Office and Wage
and Hour debarment lists showed 14 entities debarred for violations of FLC rules during
FY 2009. Additional background information is contained in Appendix A.

The audit objective was to determine whether the Department properly used suspension
and debarment tools in administering the foreign labor certification programs. To
achieve the objective, we examined related statutes, regulations, and executive orders
and reviewed draft or final suspension and debarment operating procedures, training
and resource materials, and examples of case file documents. We interviewed (a)
Program Office, Wage and Hour, and other Department personnel; (b) U.S. General
Services Administration personnel; and (c) officials at OIG’s Office of Labor
Racketeering and Fraud Investigations (OLRFI). We analyzed FY 2009 data related to
FLC applications the Program Office approved, Program Office and Wage and Hour
debarment actions, and entries on the governmentwide Excluded Parties List System,
or EPLS (exclusion system). We compared OLRFI information to FLC data and
certified application data to Internal Revenue Service (IRS) Employer Identification
Number (EIN) website information.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
1
 Wage and Hour has concurrent debarment authority with the Program Office for debarments for the H2A program.
20 CFR 655.182(g).
                                                 Suspension and Debarment in Foreign Labor Certification
                                                  2                            Report No. 05-10-002-03-321
                                          U. S. Department of Labor – Office of Inspector General


audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

The Department did not fully utilize the debarment authority provided in the INA and did
not consider other regulatory suspension and debarment authority. Consequently, the
Department did not consider debarring 178 FLC individuals or entities with convictions
resulting from 42 investigations conducted by the Department’s OIG. When the
Department debarred 14 individuals or entities under the INA debarment authority for
FLC violations in FY 2009, it did not forward that information for inclusion on the
governmentwide exclusion system. Program Office and Wage and Hour officials did not
provide information for inclusion on the EPLS because they believed that the
governmentwide debarment rules did not apply to FLC programs. As a result, there is
an increased risk that parties who have previously violated FLC laws or regulations
could continue to receive FLC certifications or new government business or benefits
from other federal departments.

A separate issue not related to suspension and debarment came to our attention — the
testing of FLC application data revealed 99 applications or .032 percent of the tested
applications approved during FY 2009 that contained potentially invalid EINs. An invalid
EIN may indicate that the applicant is not a legitimate organization recognized by IRS.
While the number of potential invalid EINs is small, to review applications for valid EINs
that fell within the IRS acceptable range is within the Program Office’s authority to
review for obvious errors and the FLC application processing controls should identify
applications with potentially invalid EINs with causing an undue burden.

In response to our draft report, the Assistant Secretary for ETA stated that we had
apparently concluded that all convicted individuals should be debarred. However, we
only recommended that the Program Office consider and document the appropriateness
of debarment. The Assistant Secretary also stated that there are differing legal opinions
that need to be resolved concerning the Program Office’s use of the exclusion system.
The Assistant Secretary’s complete response is in Appendix D.

In discussing our draft report, WHD officials expressed concern about the legality of
using 29 CFR Part 98 to debar FLC applicants and reporting all FLC debarments to the
exclusion system. WHD indicated it has initiated legal research to make a final
determination.

We recommend the Assistant Secretary for Employment and Training and the Deputy
Administrator of the Wage and Hour Division implement procedures and controls to
assure that the Program Office and Wage and Hour (a) use suspension when
appropriate and assess and document the appropriateness of debarring each individual
convicted of an FLC violation resulting from an OIG investigation, and (b) report FLC
suspensions and debarments to designated Department personnel for inclusion on the
governmentwide exclusion system. We also recommend the Assistant Secretary for

                                         Suspension and Debarment in Foreign Labor Certification
                                          3                      Report No. 05-10-002-03-321
                                                U. S. Department of Labor – Office of Inspector General


Employment and Training strengthen FLC application processing controls to ensure the
detection and resolution of applications with invalid EINs.

RESULTS AND FINDINGS

Objective — Was the Department properly using suspension and debarment in
            administering the foreign labor certification programs?

       The Department did not consider debarment actions against convicted FLC
       violators, and did not report debarred or disqualified parties to the government’s
       exclusion system.

The Department was not required to use suspension and was not properly using
debarment in administering the foreign labor certification programs. Specifically, it did
not (a) consider debarring 178 FLC applicants 2 based on the results of OIG
investigations, and (b) report debarred or otherwise disqualified parties for inclusion on
the governmentwide exclusion system. The Department’s interpretation of its
suspension and debarment authority and responsibilities did not include its authority
under the INA to debar individuals convicted of INA violations resulting from OIG
investigations, nor did it include the authority granted to all government agencies for
debarment related to “nonprocurement” activities. As a result, (a) parties found to have
committed criminal, civil, or administrative violations of FLC rules remained eligible to
participate in FLC programs, and (b) other government agencies were not aware of FLC
related debarments when evaluating the appropriateness of contracting with or
providing government benefits to these parties.

Finding 1 — The Department was not considering debarment actions against all
            FLC applicants convicted of FLC violations

The Program Office and Wage and Hour only considered debarment actions based on
the results of investigative cases that they initiated and based only on INA and the
implementing regulations. From May 2008 through September 2009, the Department
did not consider debarment action for 178 individuals convicted of violations of FLC
programs resulting from investigations initiated by the OIG. This occurred because the
Program Office and Wage and Hour narrowly interpreted their debarment authority
based on the INA and its implementing regulations (20 Code of Federal Regulations
(CFR) Parts 655 and 656). The Program Office and Wage and Hour also did not
consider debarment of the 178 individuals under the broader governmentwide
nonprocurement suspension and debarment authority granted to federal agencies. As a
result, these individuals were neither prohibited from future participation in FLC
programs nor were they prohibited from receiving government contracts or benefits from
other federal agencies. In addition, in the cases in which the Program Office and Wage
and Hour did take debarment actions based on their own investigations, individuals


2
 FLC applicants may include an employer, a labor contractor, an attorney for the employer or labor
contractor, or any other agent of the employer or labor contractor.
                                                Suspension and Debarment in Foreign Labor Certification
                                                  4                        Report No. 05-10-002-03-321
                                              U. S. Department of Labor – Office of Inspector General


debarred from participation in one FLC program were not prohibited from future
participation in other FLC programs.

Violations of the INA, including convictions of fraud related to applications for the four
types of employment visas (PERM, H1B, H2A and H2B), serve as the basis for
debarments by the Program Office and Wage and Hour under the INA, whether the
investigations are conducted by those offices or by the OIG. However, the INA
debarment authority does not always result in debarment in all the visa programs. As a
result, an individual debarred from filing a visa application in one program may not be
prohibited from filing an application in another visa programs.

In addition to debarment authority in the INA itself, the debarment and suspension
authority under the Department’s governmentwide nonprocurement debarment and
suspension regulations at 29 CFR Part 98 (Part 98) is also available to the Program
Office and Wage and Hour. These regulations state that all nonprocurement
transactions are covered transactions (i.e., covered by the debarment and suspension
regulations) unless specifically excluded in the regulations. The regulations define
nonprocurement transactions as “any transaction, regardless of type (except
procurement contracts).” The regulations further state that a nonprocurement
transaction “does not require the transfer of Federal funds.” In addition, the regulations
list which transactions are “not covered” transactions and the FLC programs are not
included in the list. Therefore, the FLC programs meet the definition of covered
transactions under the Part 98 regulations. An expanded version of these regulations is
provided in Exhibit 1.

Under 29 CFR §98.800 3 , the Department could debar entities for a broad range of
actions including conviction of a crime or a civil judgment. Convictions based on the
results of OLRFI investigations, as well as convictions or findings of INA violations
resulting from investigations by the Program Office or Wage and Hour, would be
included in these causes for debarment. A “debarring official” is defined in 29 CFR
§98.935 as

       … either (1) The agency head; or (2) An official designated by the agency
       head.

Through Secretary Orders 03-2009 and 09-2009 the Secretary of Labor had delegated
authority as debarring officials to the Assistant Secretary of ETA for the PERM, H2A
and H2B programs; and to the Administrator of Wage and Hour, for the H1B program.
Under 20 CFR 655.182(g), Wage and Hour has concurrent debarment authority with the
Program Office for debarments for the H2A program.

Although OLRFI personnel provided the Program Office with information on 178 FLC
related convictions from May 2008 through September 2009, the Program Office did not
initiate debarment actions against any of these individuals because (a) it did not believe
3
 29 CFR §98.800 uses the same language as 2 CFR §180.800, which are the OMB Guidelines to
Agencies on Governmentwide Suspension and Debarment (Nonprocurement).
                                           Suspension and Debarment in Foreign Labor Certification
                                            5                        Report No. 05-10-002-03-321
                                           U. S. Department of Labor – Office of Inspector General


it had authority under the INA to take debarment actions based on convictions obtained
from OIG investigations and (b) it did not consider the debarment authority given to all
FLC programs under 29 CFR Part 98. Both the Program Office and Wage and Hour
only considered the debarment authority granted under INA and the implementing
regulations, 20 CFR Parts 655 and 656, and believed this authority only applied to
investigations that they conducted.

As a result, applicants convicted of violating FLC rules would not have been prevented
from receiving FLC certifications or new government business or benefits from other
federal agencies. The Department can best protect the interest of the U.S. workforce
and preserve the integrity of the FLC programs by fully utilizing the authorities under the
INA and 29 CFR Part 98 to debar applicants convicted of violations.

Finding 2 — The Department did not submit information on debarred or otherwise
            disqualified FLC applicants to designated Department personnel for
            inclusion on the governmentwide exclusion system.

The Department did not enter information into the government’s exclusion system
operated by the General Services Administration in 26 cases (14 in FY 2009) in which
the Program Office or Wage and Hour did debar or disqualify a party because of a
violation of FLC rules. The Program Office and Wage and Hour officials told us that the
criteria for governmentwide debarment were not applicable to FLC program
debarments. As a result, the potential existed that another federal agency could
inappropriately award a federal contract or other benefit to a debarred FLC applicant
because it was unaware of the Department’s debarment.

The governmentwide exclusion system was created as the result of Executive Order
12549 (February 18, 1986) which stated that to the extent permitted by law, Executive
departments and agencies will:

       ... participate in a system for debarment and suspension from programs
       and activities involving Federal financial and nonfinancial assistance and
       benefits. Debarment or suspension of a participant in a program by one
       agency shall have governmentwide effect. [Sec 1(a)].

and
       Send to the [General Services Administration] identifying information
       concerning debarred and suspended participants in affected programs,
       participants who have agreed to exclusion from participation, and
       participants declared ineligible under applicable law….[Sec 2(b)]

Subsequently, Executive Order 12689 (August 16, 1989) stated:

       … in order to protect the interest of the Federal Government, to deal only
       with responsible persons, and to insure proper management and integrity
       in Federal activities….

                                         Suspension and Debarment in Foreign Labor Certification
                                          6                      Report No. 05-10-002-03-321
                                          U. S. Department of Labor – Office of Inspector General




      … No agency shall allow a party to participate in any procurement or
      nonprocurement activity if any agency has debarred, suspended, or
      otherwise excluded (to the extent specified in the exclusion agreement)
      that party from participation in a procurement or nonprocurement activity.

The Department implemented these Executive Orders through regulations at 29 CFR
Part 98, which state, in part:

      When a Federal agency takes an action to exclude a person under the
      nonprocurement or procurement debarment and suspension system, the
      agency enters the information about the excluded person into the EPLS.
      [29 CFR §98.140]

As of October 21, 2009, the Program Office’s website published lists of 5 parties
debarred from the PERM and H2A programs. There were no debarments listed for the
H2B program. At the same time, Wage and Hour’s website published a list of 21 parties
disqualified from the H1B program. We searched the EPLS on January 26 and
28, 2010, and determined that none of these parties were included. Program Office and
Wage and Hour officials stated that they did not provide information of the parties on
their lists for inclusion on the exclusion system because they believed that the
governmentwide debarment rules did not apply to FLC programs.

The EPLS contains information about persons who are excluded or disqualified from
covered transactions. An “exclusion” means that a person is prohibited from being a
participant in covered transactions, whether that person has been suspended, debarred,
proposed for debarment under 48 CFR Part 9, subpart 9.4, or voluntarily excluded.
“Disqualified” means that a person is prohibited from participating in specified Federal
procurement or nonprocurement transactions as required under a statute, Executive
order (other than Executive Orders 12549 and 12689), or other authority. A debarment
by the Program Office or Wage and Hour under the INA meets the definition of a
“disqualification.” In addition, we found nothing in the Executive Orders or the
Department’s implementing regulations that would exclude FLC from the requirements
to provide this information. Therefore, it would be appropriate for the Department to
report its INA debarments, as well any Part 98 debarments, to the EPLS.

We could not determine whether other federal agencies had subsequently entered into
transactions with parties that the Program Office or Wage and Hour had debarred or
disqualified because there is no consolidated source of data on all federal procurement
and nonprocurement transactions. However, without reporting parties to the exclusion
system that have been debarred or disqualified because of FLC violations, there is a
risk that other federal agencies may enter into transactions with parties that they would
have otherwise avoided.




                                         Suspension and Debarment in Foreign Labor Certification
                                          7                      Report No. 05-10-002-03-321
                                           U. S. Department of Labor – Office of Inspector General


OTHER ISSUE

Testing of FLC application data revealed that 99 applications approved during FY 2009
contained potentially invalid EINs. An invalid EIN may indicate that the applicant is not a
legitimate organization recognized by the IRS. The FLC application processing controls
must ensure applicants provide valid EINs.

Applications with Invalid Employee Identification Numbers

The Program Office approved 99 applications that contained invalid EIN on H1B, H2A,
and PERM foreign labor certification applications. An EIN, also known as a Federal Tax
Identification Number, is used to identify a business entity and required by the IRS for
businesses with employees. The Program Office did not require EINs for all FLC
applications during our audit period because, according to officials, the requirement for
applicants to include EINs on H2A and H2B FLC applications became effective January
17, 2009, and January 18, 2009, respectively. Without a valid EIN, the Program Office
cannot ensure it approved applications only for legitimate employers submitting FLC
applications. While the number of potential invalid EINs is small, to review applications
for valid EINs that fell within the IRS acceptable range is within the Program Office’s
authority to review for obvious errors. Screening FLC applications for invalid EINs is a
reasonable fraud prevention measure.

We reviewed 311,918 FLC applications for FY 2009 to verify that all EINs in the
programs’ application system were valid.. The tested applications consisted of H1B
(268,243), PERM (38,247) and H2A (5,428 of the 8,150 with EINs). We did not test the
7,090 H2B applications because the Program Office officials recently started collecting
EINs as part of this application. Based on a list of valid EINs published on the IRS’s
website, our tests identified 99 approved FLC applications or .032% of the tested
population with invalid EINs as summarized in the following table.

                                                Approved
                            FLC Program       Applications
                                             with Invalid EIN
                            PERM                    3
                                                    	2                       

                            H1B                     5
                                                    	6                           

                            H2A                     1
                                                    	1                           

                             Total	                 99

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training and the Deputy
Administrator of the Wage and Hour Division:

1.	 Implement procedures and controls to assure that the Program Office and Wage
    and Hour assess and document the appropriateness of debarring each individual
    convicted of an FLC violation resulting from an OIG investigation.
                                         Suspension and Debarment in Foreign Labor Certification
                                          8                      Report No. 05-10-002-03-321
                                        U. S. Department of Labor – Office of Inspector General


2. Implement procedures and controls to assure that the Program Office and Wage and
   Hour report FLC suspensions and debarments to designated Department personnel
   for inclusion on the governmentwide exclusion system.

We also recommend the Assistant Secretary for Employment and Training:

3. Strengthen FLC application processing controls to ensure the detection and
   resolution of applications with invalid EINs.
We appreciate the cooperation and courtesies that ETA and Wage and Hour personnel
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                       Suspension and Debarment in Foreign Labor Certification
                                        9                      Report No. 05-10-002-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





           Suspension and Debarment in Foreign Labor Certification
            10                     Report No. 05-10-002-03-321
             U. S. Department of Labor – Office of Inspector General




Exhibit 





            Suspension and Debarment in Foreign Labor Certification
             11                     Report No. 05-10-002-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





           Suspension and Debarment in Foreign Labor Certification
            12                     Report No. 05-10-002-03-321
                                          U. S. Department of Labor – Office of Inspector General


                                                                                        Exhibit

                        Expanded Criteria for Finding 1

According to regulations implementing the Department’s suspension and debarment
program (29 CFR §98.210),

      All nonprocurement transactions, as defined in §98.970, are covered
      transactions unless stated in §98.215.

Nonprocurement transactions are defined in 29 CFR §98.970 as:

      (a) … any transaction, regardless of type (except procurement contracts),
          including, but not limited to the following:
            1.   Grants
            2. Cooperative agreements
            3.   Scholarships
            4. Fellowships
            5.   Contracts of assistance
            6. Loans
            7. Loan guarantees
            8. Subsidies
            9.   Insurances
          10.    Payments for specified uses
          11. Donation agreements

      (b) A nonprocurement transaction at any tier does not require the transfer of
          Federal funds. (underlining added for emphasis)

29 CFR §98.215 defined the following transactions as “not covered”:

         (a) A direct award to—
               (1) A foreign government or foreign governmental entity;
               (2) A public international organization;
               (3) An entity owned (in whole or in part) or controlled by a foreign
                   government; or
              (4) Any other entity consisting wholly or partially of one or more
                   foreign governments or foreign governmental entities.
         (b) A benefit to an individual as a personal entitlement without regard
             to the individual's present responsibility (but benefits received in an
             individual's business capacity are not excepted). For example, if a
             person receives social security benefits under the Supplemental
             Security Income provisions of the Social Security Act, 42 U.S.C.
             1301 et seq., those benefits are not covered transactions and,
             therefore, are not affected if the person is excluded.
         (c) Federal employment.
                                        Suspension and Debarment in Foreign Labor Certification
                                         13                     Report No. 05-10-002-03-321
                                         U. S. Department of Labor – Office of Inspector General


         (d) A transaction that the Department of Labor needs to respond to a
             national or agency-recognized emergency or disaster.
         (e) A permit, license, certificate, or similar instrument issued as a
             means to regulate public health, safety, or the environment, unless
             the Department of Labor specifically designates it to be a covered
             transaction.
         (f) An incidental benefit that results from ordinary governmental
             operations.
         (g) Any other transaction if the application of an exclusion to the
             transaction is prohibited by law.

As defined in 29 CFR §98.800, the Department could debar FLC applicants for a broad
range of actions, including:

   (a) Conviction of or civil judgment for—
        (1) Commission of fraud or a criminal offense in connection with
            obtaining, attempting to obtain, or performing a public or private
            agreement or transaction;
        (2) Violation of Federal	 or State antitrust statutes, including those
            proscribing price fixing between competitors, allocation of customers
            between competitors, and bid rigging;
        (3) Commission of embezzlement, theft, forgery, bribery, falsification or
            destruction of records, making false statements, tax evasion,
            receiving stolen property, making false claims, or obstruction of
            justice; or
        (4) Commission of any other offense indicating a lack of business
            integrity or business honesty that seriously and directly affects your
            present responsibility.




                                        Suspension and Debarment in Foreign Labor Certification
                                         14                     Report No. 05-10-002-03-321
                U. S. Department of Labor – Office of Inspector General




Appendices 





               Suspension and Debarment in Foreign Labor Certification
                15                     Report No. 05-10-002-03-321
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





            Suspension and Debarment in Foreign Labor Certification
             16                     Report No. 05-10-002-03-321
                                           U. S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

The INA established several visa types that permit foreign residents to work in the
United States, including:

•	 PERM – Allows an employer to hire a foreign worker to work permanently in the
   United States.

•	 H1B – Allows an employer to temporarily employ a foreign worker in a specialty
   occupation requiring a bachelor’s degree or its equivalent, or as a fashion model of
   distinguished merit and ability.

•	 H2A – Allows agricultural employers, who anticipate a shortage of domestic workers,
   to employ nonimmigrant foreign workers to perform agricultural labor or services of a
   temporary or seasonal nature.

•	 H2B – Allows employers to hire foreign workers to perform temporary
   nonagricultural services or labor on a one-time, seasonal, peak load or intermittent
   basis.

The Department, Homeland Security, and State all have oversight and approval
responsibilities in these programs. Employers must first seek a “labor certification” from
the Department. If approved, the certification acknowledges that (a) a need for workers
exists, (b) wages and working conditions of workers in the United States similarly
employed will not be adversely affected, (c) the need cannot be satisfied by available
U.S. workers, and (d) foreign workers will receive the prevailing wage for the defined
work. After receiving the labor certification, an employer may petition Homeland
Security for a visa (within annual limits established for each program). If Homeland
Security grants a visa, the Department of State is responsible for assuring that specific
workers are admissible to the U.S. under INA provisions.

The Department performs its labor certification duties through Office of Foreign Labor
Certification. While the Program Office processes FLC applications, both it and Wage
and Hour exercise responsibilities to identify and take enforcement action against
applicants who violate program rules. The Program Office has debarment authority over
the PERM and H2B programs. Wage and Hour handles debarment for the H1B
program; and the two offices share concurrent authority for debarments in the H2A
program.

The federal suspension and debarment process is used to promote economy and
efficiency in federal procurement and nonprocurement activities by ensuring the
government conducts business only with responsible parties. According to 2 CFR
§180.1015, a suspended person or entity is prohibited temporarily from government
contracting and covered transactions, pending completion of an agency investigation
and any judicial or administrative proceedings that may ensue. Debarment is an action
                                         Suspension and Debarment in Foreign Labor Certification
                                          17                     Report No. 05-10-002-03-321
                                              U. S. Department of Labor – Office of Inspector General


taken by a government official to exclude a person from participating in transactions that
fall under the Federal Acquisition Regulations (2 CFR §180.925), and other “covered
transactions” defined in the OMB Guidelines to Agencies on Governmentwide
Debarment or Suspension (Nonprocurement) (2 CFR §180.210, 2 CFR §180.215, and 2
CFR §180.970).

The Federal government established the governmentwide Excluded Parties List System
(exclusion system) as a single comprehensive list of individuals and firms suspended,
disqualified, or otherwise excluded from certain transactions with Federal government
agencies. Each federal agency adds information to the exclusion system on the parties
it has excluded. The purpose of the nonprocurement debarment and suspension system
(i.e., EPLS) is “to protect the public interest” and to ensure the integrity of federal
programs by conducting business only with responsible persons (29 CFR §98.110 4 ).
Federal agency officials must use the exclusion system to decide whether to enter into a
transaction with an entity that has been disqualified or excluded from certain
transactions with the Federal government.

In addition to general government suspension and debarment authority, the INA and 20
CFR Part 655 and 656 give the Department’s Secretary authority to debar applicants
from one or more foreign labor certification programs. This authority was delegated from
the Secretary to ETA for H2A, H2B and PERM applicants, and Wage and Hour to
disqualify H1B applicants (Secretary’s Order 3-2009 and 9-2009). Under 20 CFR
655.182(g), Wage and Hour has concurrent debarment authority with ETA for the H2A
program. For H1B debarments, Wage and Hour notifies ETA and Homeland Security of
the final determination of any violation requiring invalidation or non-approval of
application or petitions. Under INA and 20 CFR Parts 655 and 656, a debarment or
disqualification prevents an individual or entity from participating in the foreign labor
certification program which the individual or entity violated for a period of 1 to 3 years.




4
 29 CFR §98.800 uses the same language as 2 CFR §180.800, which are the governmentwide
suspension and debarment regulations.
                                           Suspension and Debarment in Foreign Labor Certification
                                            18                       Report No. 05-10-002-03-321
                                           U. S. Department of Labor – Office of Inspector General


                                                                                   Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

The OIG audited ETA’s Program Office and Wage and Hour’s use of suspension and
debarment authority within the FLC programs. The audit objective was to determine
whether the Department properly used suspension and debarment tools in
administering the foreign labor certification programs.

Scope

The OIG audited the Program Office and Wage and Hour’s suspension and debarment
practices and procedures in the FLC program for FY 2009. We expanded our review of
OLRFI convictions to cover the period May 2008 through September 2009.

Our audit work was conducted at the Office of Foreign Labor Certification headquarters
and Wage and Hour Division headquarters, both located in Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To achieve the objective, we examined statutes, regulations, and executive orders
related to the Department’s responsibilities and authorities for screening FLC
applications and enforcing FLC requirements through suspension and debarment.
Specifically, we identified and reviewed the regulatory authority of the Program Office
and Wage and Hour, their responsibilities under the INA, and the regulatory
requirements for the governmentwide exclusion system.

To gain an overall understanding of the Program Office and Wage and Hour’s FLC
application screening and enforcement responsibilities, policies and practices, we
reviewed relevant documents; interviewed the agencies’ personnel responsible for FLC
suspensions, debarments and for the development and maintenance of each
debarment list; identified the Program Office’s responsibilities, polices and practices for
processing and screening FLC applications against the various FLC debarment lists;
interviewed personnel at General Services Administration to obtain an understanding of
the exclusion system and the Department’s personnel responsible for entering
information on the system; and interviewed officials at OIG’s OLRFI to understand what
information was reported to the Program Office and Wage and Hour. We also reviewed
draft or final suspension and debarment operating procedures, training and resource
                                         Suspension and Debarment in Foreign Labor Certification
                                          19                     Report No. 05-10-002-03-321
                                                 U. S. Department of Labor – Office of Inspector General


materials, and case file documents related to FLC debarments. In our interviews, we
determined how the Program Office and Wage and Hour obtained and used the results
of investigations conducted by OLRFI.

We analyzed the data related to FLC applications the Program Office approved during
FY 2009, Program Office and Wage and Hour debarment actions, and entries on the
EPLS. Specifically, we compared (a) the Program Office and Wage and Hour H1B
debarment lists to ensure Wage and Hour was reporting debarments to the Program
Office; (b) both offices’ H1B, H2A and PERM debarment lists to the EPLS to determine
if any FLC debarments were listed in the system; (c) the Program Office debarment lists
against the certified applications to determine if a debarred applicant received an FLC;
and (d) OLRFI data against the Program Office’s debarment lists and the certified
application data to identify if applicants convicted of FLC violations were debarred by
either the Program Office or Wage and Hour. In addition, we selected a sample of 170
of 226,230 H1B, 167 of 7,665 H2A, 166 of 5,871 H2B, and 170 of 29,502 PERM
certified FLC applications and tested the sample against the EPLS online database to
determine if any certified FLC applicants were listed.

We tested the certified application data to identify if any entities submitted applications
using more than one Employer Identification Number (EIN) and if applicants provided
the Program Office with valid EINs. This was an issue raised in a previous Government
Accountability Office audit report.

Reliability Assessment

We obtained data for our testing procedures from the Program Office, Wage and Hour,
OLRFI, and the Program Office’s website. The Program Office data consisted of the
H1B (268,243 applications), H2A (8,150), H2B (7,090) and PERM (38,247) FLC
application data for FY 2009. The OLRFI provided data on 42 investigations related to
FLC applicants that resulted in 245 actions during the period May 2008 through
September 2009 5 . Using the internet, we obtained Wage and Hour’s H1B list of
Homeland Security debarments (26 debarred entities) and the Program Office’s H2A (4
debarred entities) and PERM (1 debarred entity) debarment lists.

We assessed the reliability of the Program Office data by (1) using Audit Command
Language (ACL) software to reconcile the number of data files to the Program Office’s
summary report for FY 2009; (2) performing logic tests of the data; and (3) reviewing
third party system review reports. We assessed the reliability of the OLRFI data by (1)
reviewing the system parameters used to obtain the data and (2) performing logic tests
of the data. We assessed the reliability of the debarment list data by performing logic
tests of the data. Based on our assessment and tests, we concluded the data were
sufficiently reliable to be used in meeting our objective.



5
  OLRFI was only able to provide documentation showing it had notified the Program Office of the
investigative results for 178 of the 245 individuals.
                                                   Suspension and Debarment in Foreign Labor Certification
                                                    20                     Report No. 05-10-002-03-321
                                          U. S. Department of Labor – Office of Inspector General


Internal Control

In planning and performing our audit we considered the Program Office’s and Wage and
Hour’s internal control that was relevant to our audit objective by obtaining an
understanding of that control, and assessing control risk for the purpose of achieving
our objective. The objective of our audit was not to provide assurance of the internal
controls; therefore, we did not express an opinion on the Program Office’s or Wage and
Hour’s internal control as a whole. Our consideration of internal control relevant to our
audit objective would not necessarily disclose all matters that might be significant
deficiencies. Because of the inherent limitations on internal control, noncompliance may
nevertheless occur and not be detected.

Criteria

   •   2 CFR Part 180

   •   20 CFR Part 655

   •   20 CFR Part 656

   •   29 CFR Part 98

   •   8 USC 1182

   •   8 USC 1188

   •   8 USC 1184

   •   Executive Order-12549

   •   Executive Order-12689

   •   Immigration and Nationality Act




                                         Suspension and Debarment in Foreign Labor Certification
                                          21                     Report No. 05-10-002-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





           Suspension and Debarment in Foreign Labor Certification
            22                     Report No. 05-10-002-03-321
                                     U. S. Department of Labor – Office of Inspector General




                                                                           Appendix C
Acronyms and Abbreviations

CFR                   Code of Federal Regulations

Homeland Security     U.S. Department of Homeland Security

Department            U.S. Department of Labor

EIN                   Employer Identification Number

Exclusion System      Excluded Parties List System

ETA                   Employment and Training Administration

FLC                   Foreign Labor Certification

FY                    Fiscal Year

IRS                   U.S. Internal Revenue Service

INA                   Immigration and Nationality Act

Program Office        Office of Foreign Labor Certification

OIG                   Office of Inspector General

OLRFI                 Office of Labor Racketeering and Fraud Investigations

Wage and Hour         Wage and Hour Division




                                    Suspension and Debarment in Foreign Labor Certification
                                     23                     Report No. 05-10-002-03-321
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





            Suspension and Debarment in Foreign Labor Certification
             24                     Report No. 05-10-002-03-321
                                 U. S. Department of Labor – Office of Inspector General


                                                                        Appendix D
OFLC Response to Draft Report




                                Suspension and Debarment in Foreign Labor Certification
                                 25                     Report No. 05-10-002-03-321
 U. S. Department of Labor – Office of Inspector General




Suspension and Debarment in Foreign Labor Certification
 26                     Report No. 05-10-002-03-321
 U. S. Department of Labor – Office of Inspector General




Suspension and Debarment in Foreign Labor Certification
 27                     Report No. 05-10-002-03-321
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





            Suspension and Debarment in Foreign Labor Certification
             28                     Report No. 05-10-002-03-321
                                          U. S. Department of Labor – Office of Inspector General


                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Charles Allberry (Audit Director), Robert Swedberg,
Stephen Lawrence, Charmane Miller, and Jennisa Paredes.




                                        Suspension and Debarment in Foreign Labor Certification
                                         29                     Report No. 05-10-002-03-321
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





            Suspension and Debarment in Foreign Labor Certification
             30                     Report No. 05-10-002-03-321
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
